No. 19-659
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MILADIS SALGADO, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 28th day of February, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,208
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
February 28, 2020.

February 28, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0659
SALGADO, MILADIS
USA
DAN ALBAN
INSTITUTE FOR JUSTICE
901 N. GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
703-682-9320
DALBAN@IJ.ORG
JOSHUA S. LIPSHUTZ
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON, DC 20036
202-955-8500
JLIPSHUTZ@GIBSONDUNN.COM
SAMUEL G. MACROBERTS
KANSAS JUSTICE INSTITUTE
12980 METCALF AVENUE
SUITE 130
OVERLAND PARK, KS 66213
913-213-5018
SAM.MACROBERTS@KANSASJUSTICEINSTITUTE.ORG
JUSTIN MARC PEARSON
INSTITUTE FOR JUSTICE
2 S. BISCAYNE BOULEVARD
SUITE 3180
MIAMI, FL 33131
305-721-1600
JPEARSON@IJ.ORG

VIA EMAIL

ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG

